   UNITED STATES POSTAL SERVICE
   OFFICE OF INSPECTOR GENERAL




     BANK SECRECY ACT
             SEPTEMBER 30, 1998




         RESTRICTED INFORMATION



Management Advisory Report Number FR-LA-98-001




              Restricted Information
                                  September 30, 1998


                                  M. RICHARD PORRAS
                                  CHIEF FINANCIAL OFFICER
                                  AND SENIOR VICE PRESIDENT

                                  SUBJECT: Bank Secrecy Act Program (FR-LA-98-001)

                                  This is a management advisory report which highlights the results of
                                  our initial review of the United States Postal Service (USPS) Bank
                                  Secrecy Act (BSA) Program.

                                  Our objectives were to review the requirements and determine the
                                  current status of the USPS BSA Program.

                                  Our review was conducted during the period April to July 1998. We
                                  plan to perform more in-depth audits of the USPS BSA Program
                                  during fiscal years 1999 and 2000.

                                  To accomplish our objectives, we determined the requirements of the
                                  BSA that are applicable to the USPS. We interviewed individuals
                                  involved with the development and implementation of the BSA
                                  Program including, the BSA          , the BSA Program Manager,
                                                  , and St. Louis               . We also reviewed the
                                  USPS BSA Program plans and system design. In addition, we
                                  identified the various systems that would interface with the BSA
                                  Program system that is currently under development.

                                  Our review was conducted in accordance with generally accepted
                                  government auditing standards and included such tests of BSA internal
                                  controls as deemed necessary.

    Background 	                  The BSA is a law1 enacted to deter money-laundering activities.
                                  Money laundering is the attempt to conceal or disguise the nature,
                                  location, source, ownership, or control of money derived from illegal
                                  activities. Law enforcement officials have estimated that between
                                  $100 billion and $300 billion in United States currently is laundered
                                  each year.




1
    Public Law 91-508, 84 Stat. 1114 (1970).
Bank Secrecy Act	                                                                FR-LA-98-001


                            The BSA requires certain cash purchases of financial instruments such
                            as money orders, wire transfers, and stored value cards to be reported to
                            the United States Department of Treasury. The law applies to the
                            USPS because it currently sells such instruments to the public. In
                            cooperation with the United States Department of Treasury, the USPS
                            is participating in the broad federal effort to curb illegal activities
                            through all reasonable means, including making it more difficult to
                            launder the cash proceeds from illegal activities into otherwise
                            legitimate financial accounts and instruments.

    Results in Brief 
 Overall, the USPS has made significant progress in complying with the
                            BSA. When fully implemented, the USPS BSA Program should ensure
                            the USPS is generally compliant. In addition, the BSA Program should
                            assist management personnel in identifying instances of non-
                            compliance and, therefore, take appropriate actions to prevent
                            reoccurrence.

                            However, as a result of our review, there were three areas of concern
                            that we would like to bring to your attention:

                            • system access,
                            • training, and
                            • document retention.

    System Access 	         BSA system access was not always properly controlled. Discussions
                            with       and review of applicable BSA documentation revealed the
                            following:

                                  a. 	 Our review disclosed that five contractor personnel assigned
                                       to develop the BSA system did not have "sensitive
                                       clearances." USPS guidance requires that individuals having
                                       access to sensitive information, such as the BSA system,
                                       obtain a "sensitive clearance. "2 Such clearances are designed
                                       to ensure that compromise of sensitive information does not
                                       occur resulting in a financial loss, inconvenience, or delay in
                                       the performance of the “significant Postal Service mission.”
                                       Sensitive clearances had not been obtained for the five
                                       contractor personnel because the contracting officer had not
                                       followed established procedures and did not administer the
                                       contracts properly. This condition affects the BSA system as
                                       well as other systems developed by the USPS Integrated
                                       Business Systems Solution Center (IBSSC) in St. Louis. The
                                       Postal Inspection Service reported this issue to the USPS Vice
                                       President, Information Systems, in a separate report

2
    USPS Administrative Support Manual paragraph 272.321.
                                                       2
                                           Restricted Information
Bank Secrecy Act	                                                      FR-LA-98-001


                             (Draft Audit Report of Electronic Data Processing Controls,
                             condition 98SLIS01, August 1998). Management personnel
                             took actions during the course of our review to upgrade the
                             clearances of the contractor personnel still working on the
                             BSA system. In addition, management assessed the work
                             performed by those contractor personnel who were no longer
                             working on the BSA system to ensure propriety.

                         b. 	 USPS officials planned to provide USPS data entry clerks
                              inappropriate BSA system access levels. Specifically, system
                              documentation showed that data entry clerks would have
                              access to money order and money order status add and update
                              tables in the BSA system. However, discussions with
                              management personnel revealed the data entry clerks’ duties
                              were not compatible with the need to access tables other than
                              the BSA document (8105A/B) add/update tables. This
                              situation occurred because data entry clerks were grouped
                              with money order analysts who needed access to the money
                              order and money order status add and update tables.
                              Following our disclosure, management initiated a software
                              change request to correct this situation.

                    Improper system access places the BSA system at unwarranted risk for
                    improprieties and/or inaccuracies. Due to the sensitivity of the BSA
                    system, access should be strictly controlled.

                    We have no further suggestions concerning system access since
                    management took actions during the course of the review. However,
                    we will review system access again during future audits.

  Training 	        Management personnel had not developed plans to ensure training was
                    provided to                 responsible for issuing USPS money orders
                    at foreign locations. Discussions with BSA management personnel
                    revealed they had not made plans nor contacted                 to
                    provide required BSA training. The BSA requires that personnel
                    receive training on the requirements of the Act. During our review, we
                    provided management personnel with a point of contact within the
                    Military Postal Service Agency (MPSA). Management met with
                    MPSA personnel to make arrangements for military personnel to obtain
                    the necessary BSA training.

                    As a result of the actions taken by management, no further suggestions
                    for improvement are offered. We will follow up on this issue in the
                    future to ensure the                 received the necessary BSA
                    training.


                                           3
                                Restricted Information
Bank Secrecy Act	                                                        FR-LA-98-001



    Document 
      Discussions with management personnel and review of the BSA
    Retention 
     Program documentation revealed that management personnel planned
                    to dispose of hard copies of "Funds Transaction/Transfer" (Form
                    8105A) and "Suspicious Transaction" (Form 8105B) forms six months
                    after the date the data from these forms were entered in the BSA
                    system. This decision was not formally coordinated with United States
                    Department of Treasury, USPS Inspection Service, or USPS Legal
                    personnel. Paragraph 103.29(c) of the BSA requires documentation be
                    retained for five years. Without this source documentation to validate
                    that data were correctly entered into the BSA system, the information
                    may be subject to scrutiny by those being investigated or prosecuted
                    using the data. In addition, the Form 8105A contains the signature of
                    the postal employee certifying the personal information for the
                    customer. We make one suggestion, shown below, for improvement in
                    this area.

  Suggestion 	      The Chief Financial Officer and Senior Vice President should direct the
                    BSA Compliance Officer to retain the Forms 8105A and 8105B for five
                    years in accordance with the BSA. Alternatively, the BSA Compliance
                    Officer may coordinate with the appropriate United States Department
                    of Treasury, USPS Inspection Service, and USPS Legal personnel to
                    determine if the data entered into the BSA system will fulfill their
                    requirements. In that case, an agreed upon retention timeframe for
                    these documents should be established.

                    The Chief Financial Officer and Senior Vice President agreed to
Management          implement the suggestion for improvement. He stated that the
Comments            following actions were taken regarding document retention:

                         1. BSA team met with Post Office Accounting in June 1998 to
                       assist with developing the retention schedule. The BSA team
                       included                 Inspection Service, Office of Inspector
                       General, and the Law Department.

                         2. The          has been instructed to maintain all forms, until
                       official retention period is developed, cleared, and published.

                         3. The BSA team has recommended to retain the forms for five
                       years or until such time as the BSA               coordinates with
                       the appropriate United States Department of Treasury,




                                          4
                                Restricted Information
Bank Secrecy Act                                                          FR-LA-98-001


                         Inspection Service, and Law Department to determine if the data
                         entered into the BSA system will fulfill their requirements, with an
                         agreed upon retention timeframe, other than five years.

                   An electronic version of the full verbatim text of Management
                   Comments regarding this entire Management Advisory Report are
                   attached as Appendix I.

                   The Chief Financial Officer and Senior Vice President's comments are
Evaluation of      responsive to the suggestion identified in this report.
Management
Comments           We would be happy to meet with you and discuss in detail these issues
                   if you wish. If you have any questions or need additional information,
                   please contact               ,                , or me at (703) 248-
                   2300.




                   Colleen A. McAntee
                   Assistant Inspector General
                    for Performance

                   Attachment

                   cc:



                           John R. Gunnels




                                            5
                                 Restricted Information
Bank Secrecy Act                            FR-LA-98-001




                             6

                   Restricted Information
Bank Secrecy Act	                                                                FR-LA-98-001


                    Management Advisory Report - Bank Secrecy Act Program


System Access

The first area of concern was that system access not always properly controlled and that data
entry clerks were given inappropriate BSA system access levels. The following actions were
taken to address system access:

      1. 	 All requests for access to the system must be approved through Headquarters BSA
           staff. A Request for Computer Access, PS Form 1357, must be submitted. The BSA
           staff is responsible to monitor and control access to the system.

      2. 	 The manager in charge of system development, at the St. Louis IBSSC, now ensures
           the existence of a sensitive security clearance before any individual is allowed access to
           the system.

      3. 	 Different levels of access now exist according to job category and this access is strictly
           controlled. Data entry clerks no longer have access to areas that are appropriate for
           only money order analysts.

      4. 	 The St. Louis IBSSC designee will be responsible for ensuring that the following
           specified tasks are accomplished:

                •	 By August 31, 1998 will identify all contractors working in or directly for the
                   IBSSC and will either have submitted, or have requested that the COR submit,
                   the appropriate paperwork for a sensitive clearance where an interim or
                   sensitive clearance for a contractor cannot be documented.

                •	 By August 31, 1998 will have procedures in place to ensure that we can
                   identify the contracting officer or COR responsible for each contractor and
                   that these contracting officers and CORs are either fulfilling their
                   responsibilities in relation to the security requirements for contractors or that
                   someone has been granted proper authority to act for them.

                •	 By September 11, 1998 will implement procedures to ensure that the ISSO,
                   the LAN Administrator, and the individual responsible for badges and
                   physical access all know of the departure of a contractor either in advance or
                   immediately upon departure. IBSSC designee will also ensure that the August
                   1997 instructions regarding “Clearance Record for Separated Contractor” are
                   adhered, and the form will be revised as appropriate and all paperwork will be
                   accomplished correctly and promptly.




                                                  7                                      APPENDIX 1
                                       Restricted Information
Bank Secrecy Act	                                                               FR-LA-98-001


Training

The second area of concern was training, stating that management personnel had not developed
plans to ensure training was provided to military personnel responsible for issuing USPS money
orders at foreign locations. The following actions were taken:

        1. 	 Headquarters BSA staff met with the Military Postal Service Agency (MPSA) on
             May 15, 1998 and gave the BSA training to military representatives, who are
             responsible for ensuring training, is provided to necessary military personnel. The
             military representatives were given copies of the BSA training videos and various
             training handouts.

        2. 	 At the request of the MPSA additional copies of the BSA training videos and
             handouts were sent to them in July 1998.

        3. 	 The BSA staff has followed up with the MPSA and has offered assistance in their
             training efforts.

Document Retention

The third area of concern was document retention, revealing that management personnel planned
to dispose of hard copies of “Funds Transaction/Transfer” (form 8105A) and “Suspicious
Transaction (form 8105B) forms six months after the date the data from these forms were
entered in the BSA system. In response to this concern, Corporate Accounting, specifically Post
Office Accounting, is responsible for developing, clearing, and publishing USPS records
retention schedules. This is done based on input from the functional organization responsible for
the creation/receipt of the records, all other affected functional organizations, as well as the Law
Department and the Inspection Service. The following actions were taken:

        1. 	 BSA team met with Post Office Accounting in June 1998 to assist with developing
             the retention schedule. The BSA team included BSA staff, St. Louis ASC, Inspection
             Service, OIG, and the Law Department.

        2. 	 The St. Louis ASC has been instructed to maintain all forms, until official retention
             period is developed, cleared, and published.

        3. 	 The BSA team has recommended to retain the forms for five years or until such time
             as the BSA Compliance Officer coordinates with the appropriate United States
             Department of Treasury, Inspection Service, and Law Department to determine if the
             data entered into the BSA system will fulfill their requirements, with an agreed upon
             retention timeframe, other than five years.




                                                 8	                                     APPENDIX 1
                                       Restricted Information
Bank Secrecy Act                                      FR-LA-98-001




    Major Contributors to This Report Were:

                   .




                                        9
                             Restricted Information
